 ER-B-99-06

        AUDIT
       REPORT

                               BECHTEL JACOBS
                              PAYROLL CREATION




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL       APRIL 1999
  OFFICE OF AUDIT SERVICES
                                        DEPARTMENT OF ENERGY
                                           Washington, DC 20585
                                              April 14, 1999

MEMORANDUM FOR THE ACTING MANAGER, OAK RIDGE OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager (Signed)
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Bechtel Jacobs Payroll Creation"


BACKGROUND

The Oak Ridge Operations Office (Operations Office) awarded a contract to the Bechtel Jacobs
Company, LLC (Bechtel Jacobs) in December 1997. The terms of the contract require Bechtel Jacobs to
create new jobs in the Oak Ridge area with a cumulative payroll of $427 million through Fiscal Year (FY)
2003. In FY 1998, the contract required Bechtel Jacobs to create $11 million in new payroll. The
objective of the audit was to determine if Bechtel Jacobs met its commitment to create at least $11 million
in new payroll in the Oak Ridge, Tennessee area through September 30, 1998.

RESULTS OF AUDIT

We could not determine if Bechtel Jacobs met its new payroll commitment. Bechtel Jacobs reported that
it created $13.5 million in new payroll through September 30, 1998. In our opinion, the Department was
not provided with sufficient data to fully verify that all claimed payroll had been created. The Operations
Office verified that Bechtel National, Inc., and Jacobs Engineering Group Inc., created $4.9 million in
new payroll through September 30, 1998. However, the only data supporting the remaining $8.6 million
claimed by Bechtel Jacobs were letters from local companies showing the amount of new payroll claimed.
The Operations Office did not require Bechtel Jacobs to obtain sufficiently detailed records to support the
local companies’claims, and accepted the letters as adequate support. The Operations Office believed
that company officials would not sign payroll creation claims unless the claims were true. As a result, the
Department has little assurance that Bechtel Jacobs created $13.5 million in new payroll, and Bechtel
Jacobs may have received up to $4.5 million in fee to which it was not contractually entitled.

We recommend that the Acting Manager, Oak Ridge Operations Office (1) adhere to the terms of the
contract to have Bechtel Jacobs provide data that will enable validation of new payroll, (2) fully validate
Bechtel Jacobs' payroll creation claims, and (3) recoup fee in accordance with the terms of the contract if
Bechtel Jacobs fails to meet its payroll creation commitments.
                                                   -2-


MANAGEMENT REACTION

Management disagreed with the audit finding and Recommendation 2. Although management
concurred with Recommendations 1 and 3, their comments suggest that no corrective actions are
planned. The Operations Office stated that obtaining certification letters from local companies, and
Bechtel Jacobs' assurance that the information was factual to the best of its knowledge, provided
adequate validation of new payroll claims. The Operations Office believed any further validation of
local companies' records would have a chilling effect on participation in the payroll creation program.

The audit concluded that certification letters do not provide reasonable assurance that all reported
payroll was actually achieved. Subsequent reviews of the new corporate payroll reported by Bechtel
Jacobs' parent companies resulted in a 21-percent reduction in those claims even though the claims
were certified by company officials. Therefore, we believe that the payroll creation claims made by
local companies might also be significantly reduced if the claims were subject to review.


Attachment

cc: Deputy Secretary
    Under Secretary
BECHTEL JACOBS PAYROLL CREATION


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Conclusions and Observations.................................................. 2


               Verification of Payroll Claims

               Details of Finding ......................................................................4

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   In March 1997, the Operations Office invited companies to submit
OBJECTIVE          proposals for a performance-based contract for the management and
                   integration of environmental programs at Departmental facilities in Oak
                   Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio. One of
                   the objectives for this new contract was to stimulate community
                   investment by requiring corporate initiatives to create jobs that are not
                   dependent on Departmental resources. The evaluation criteria for
                   proposals stated that 15 percent of the total score awarded to each
                   bidder would be based on new payroll creation plans.

                   The Operations Office awarded this contract to Bechtel Jacobs in
                   December 1997. Under the contract, Bechtel Jacobs was required to
                   create new jobs with a cumulative payroll of $427 million. The table
                   below shows the amount of new payroll Bechtel Jacobs was required to
                   create by the end of each fiscal year.


                                               Bechtel Jacobs
                                      New Payroll Creation Commitments
                               Fiscal Year
                              Commitment                           Payroll Creation

                                   1998                           $ 11 million
                                   1999                             43 million
                                   2000                             65 million
                                   2001                             84 million
                                   2002                            103 million
                                   2003                            121 million

                              Total                               $427 million


                   Bechtel Jacobs was required to create $11 million worth of new jobs by
                   the end of FY 1998. The contract defined new jobs as jobs created by
                   the direct action of Bechtel Jacobs that are not dependent on
                   Departmental expenditures for their creation or continuation. This
                   includes all primary jobs as well as supporting jobs like subcontractors
                   and material suppliers. However, new jobs do not include retail sales or
                   other indirect and incidental jobs that result from general increases in the
                   economy. Additionally, new jobs cannot displace other existing jobs.
                   The contract established a mechanism to recoup fees from Bechtel
                   Jacobs for failing to meet its commitments for new payroll creation. The
                   contract states that Bechtel Jacobs will forfeit $1 in fee for each $1 of

Page 1                                                          Introduction and Objective
                  payroll not created, not to exceed one-half of the fee earned in any fiscal
                  year.

                  To facilitate new job creation in the Oak Ridge area, Bechtel Jacobs
                  provided incentives such as loan guarantees, rent subsidies, and
                  relocation assistance to its corporate parents and various local
                  companies.

                  The Office of Inspector General recently issued a report on a similar job
                  creation program at the Hanford Site. Report DOE/IG-0430, Project
                  Hanford Management Contract Costs and Performance, concluded that
                  most of the new jobs created by Fluor Daniel Hanford, Inc., (Fluor
                  Daniel) in FY 1997 were not comparable in skill and wage levels to the
                  jobs lost at the Hanford Site through workforce reductions.
                  Consequently, the new jobs did not help the Department meet its long-
                  term goal of stabilizing and diversifying the Tri-Cites economy. We
                  recommended that the Richland Operations Office establish performance
                  expectations that define the quality of jobs promised by Fluor Daniel and
                  desired by the Department. Management did not concur with the finding
                  and recommendation.

                  The objective of this audit was to determine if Bechtel Jacobs met its
                  commitment to create at least $11 million in new payroll in the Oak
                  Ridge area through September 30, 1998.

                  We could not determine if Bechtel Jacobs met its new payroll
                  commitment. Bechtel Jacobs reported that it created $13.5 million in
                  new payroll through September 30, 1998. In our opinion, the
                  Department was not provided with sufficient data to fully verify that all
CONCLUSIONS AND   claimed payroll had been created. The Operations Office verified that
OBSERVATIONS      Bechtel National, Inc., and Jacobs Engineering Group Inc., created
                  $4.9 million in new payroll through September 30, 1998. However, the
                  only data supporting the remaining $8.6 million claimed by Bechtel
                  Jacobs were letters from local companies showing the amount of new
                  payroll claimed. The Operations Office did not require Bechtel Jacobs to
                  obtain sufficiently detailed records to support the local companies’
                  claims, and accepted the letters as adequate support. The Operations




Page 2                                                    Conclusions and Observations
         Office believed that company officials would not sign payroll creation
         claims unless the claims were true. As a result, the Department has little
         assurance that Bechtel Jacobs created $13.5 million in new payroll, and
         Bechtel Jacobs may have received up to $4.5 million in fee to which it
         was not contractually entitled.

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                                  (Signed)

                                               Office of Inspector General




Page 3                                          Conclusions and Observations
VERIFICATION OF PAYROLL CLAIMS


Payroll Claims Could     We could not verify that Bechtel Jacobs created $13.5 million in new
Not Be Verified          payroll between March 10, 1997, and September 30, 1998. The
                         Operations Office validated $4.9 million in payroll created by Bechtel
                         National, Inc., and Jacobs Engineering Group Inc., transferring or
                         expanding corporate activities to the Oak Ridge, Tennessee area. To
                         facilitate the validation process, Bechtel Jacobs provided the Operations
                         Office access to detailed records including employee names, rates of
                         pay, and projects billed to support that these new jobs existed and were
                         not dependent on Departmental funding.

                         The validation process resulted in downward adjustments to Bechtel
                         Jacobs’claim for new corporate payroll. On October 30, 1998, Bechtel
                         Jacobs claimed their efforts created $6.2 million in new corporate
                         payroll. Bechtel Jacobs later reduced their claim to $5.5 million.
                         Operations Office's validation of the corporate payroll resulted in the
                         claim being further reduced to $4.9 million.

                         The Operations Office did not obtain detailed payroll records to validate
                         the remaining $8.6 million in new payroll reported by Bechtel Jacobs.
                         The only data provided to the Operations Office to support the claims of
                         14 local companies were letters, signed by company officers, stating the
                         amount of new payroll claimed and the number of new jobs created. We
                         do not believe that these letters provide sufficient data to verify the local
                         companies’claims.

                         The contract established specific requirements that Bechtel Jacobs must
Contract Requires        follow to substantiate new payroll creation claims. The contract
Bechtel Jacobs to        requires that Bechtel Jacobs provide an annual report detailing its
Provide Access to Data   progress toward meeting the $427 million payroll creation commitment,
                         and access to data that validates the amount of payroll created in each
                         fiscal year. Further, the Operations Office and Bechtel Jacobs
                         negotiated an Advanced Understanding on Implementation of
                         Community Investment Provisions which required Bechtel Jacobs to
                         provide the Operations Office with actual payroll data, supplied by each
                         employer.

                         Also, the contract established a mechanism to recoup fees from Bechtel
                         Jacobs for not achieving the payroll creation commitment. Specifically,
                         the contract states that Bechtel Jacobs' "inability to deliver such
                         commitments [payroll creation] for any fiscal year will result in the
                         forfeiture of $1 in fee for each $1 worth of payroll not delivered, not to
                         exceed one-half of the fee earned in any fiscal year. "
                         Despite the contractual requirement to make data available for

Page 4                                                                           Details of Finding
Operations Office Did Not   validation, the Operations Office did not require Bechtel Jacobs to
Establish an Effective      provide sufficient data to support local companies’claims. The
Validation Process          Operations Office determined that letters were adequate support to
                            validate the claims. The Operations Office and Bechtel Jacobs were
                            concerned that many local companies would not participate in the
                            payroll creation effort if their participation required them to open
                            their books and records to Government auditors. Also, the
                            Operations Office believed that company officials would not sign
                            payroll creation claims unless the claims were true.

                            As a result, the Department has little assurance that Bechtel Jacobs
                            created $13.5 million in new payroll as of September 30, 1998. The
Department Has Little
                            verification process resulted in significant reductions in Bechtel
Assurance That Bechtel
                            Jacobs’claim for new corporate payroll. If the claims of the 14 local
Jacobs’Claims Were
                            companies were validated, it is likely that additional reductions to
Accurate                    Bechtel Jacobs’new payroll creation claim would occur.

                            Further, Bechtel Jacobs may have received up to $4.5 million in fee to
                            which it was not entitled. Bechtel Jacobs could only support
                            $4.9 million of its $11 million commitment as of September 30, 1998.
                            The difference of $6.1 million is questionable. The contract requires
                            that Bechtel Jacob forfeit $1 in fee for each $1 in new payroll not
                            delivered, up to one-half of the fee received in any fiscal year. Since
                            Bechtel Jacobs received $9 million in fee in FY 1998, Bechtel Jacobs
                            may have received up to $4.5 million in fee to which it was not
                            entitled.

                            We recommend that the Acting Manager, Oak Ridge Operations
                            Office:
RECOMMENDATIONS
                            1. Adhere to the terms of the contract to have Bechtel Jacobs
                               provide data that will enable validation of new payroll,

                            2. Fully validate Bechtel Jacobs’payroll creation claims, and

                            3. Recoup fee in accordance with the terms of the contract if Bechtel
                               Jacobs fails to meet its payroll creation commitments.




Page 5                                                     Recommendations and Comments
MANAGEMENT         The Operations Office did not agree with the finding and
REACTION           recommendation two. Specifically, the Operations Office believed the
                   audit conclusions were based upon a misinterpretation of the contract
                   and the Advanced Understanding on Implementation of Community
                   Investment Provisions. In discussions leading to the advanced
                   understanding, the Operations Office and Bechtel Jacobs stated they
                   agreed that the term "actual payroll data" means the aggregate payroll
                   for each employer and the number of jobs represented by this payroll.
                   Further, the Operations Office and Bechtel Jacobs agreed that validation
                   of payroll creation claims would be satisfied by obtaining certification
                   letters from the companies and Bechtel Jacobs certifying that the claims
                   were factual to the best of their knowledge.

                   Management believed that conducting additional verification of payroll
                   claims was unnecessary. The Operations Office stated that the Bechtel
                   Jacobs contract does not require that local companies' payroll creation
                   claims be audited. The Operations Office believed the Government does
                   not have the authority to audit these companies' payroll records.
                   Additionally, implementing such a requirement was deemed to have a
                   chilling effect on participation in the community investment initiative.
                   Finally, management believed the data submitted by Bechtel Jacobs
                   provided a reasonable assurance that the reported payroll was actually
                   achieved, and the data exceeds generally accepted standards for
                   industrial development programs.

                   Although management concurred with recommendations one and three,
AUDITOR COMMENTS   their comments suggest no corrective actions are planned. The contract
                   states that Bechtel Jacobs "shall make available to DOE data that will
                   validate the accomplishment of these commitments." Further, the
                   advanced understanding requires Bechtel Jacobs to provide "actual
                   payroll data by employer, supplied by the individual employer." If the
                   Operations Office and Bechtel Jacobs agreed that the payroll claims
                   made by local companies would not be subject to review, then the
                   contract and the advanced understanding should state that payroll
                   creation claims will be accepted without validation or review.
                   Otherwise, certification letters, even when signed by company officials,
                   do not provide an adequate basis for determining whether Bechtel
                   Jacobs achieved its contractual payroll creation commitment. Without
                   some access to supporting records, the payroll creation claims of local
                   companies cannot be adequately validated.

                   Also, we disagree that the data provided by Bechtel Jacobs provided


Page 6                                               Recommendations and Comments
         reasonable assurance that the reported payroll was actually achieved.
         Subsequent reviews of the new corporate payroll reported by Bechtel
         Jacobs' parent companies resulted in a 21-percent reduction in those
         claims even though the claims were certified by company officials.
         Therefore, we believe it is likely that the payroll creation claims made
         by local companies would also be significantly reduced if the claims
         were subject to review. Further, the Operations Office did not support
         its belief that Bechtel Jacobs provided more detailed payroll creation
         data than generally expected for Federal or State industrial
         development programs. Management did not identify any industrial
         development programs similar to the Bechtel Jacobs contractual
         agreement.




Page 7                                    Recommendations and Comments
Appendix

SCOPE         The audit was performed from December 1, 1998, to February 26, 1999,
              at the Operations Office in Oak Ridge, Tennessee. The scope of our
              audit was limited to Bechtel Jacobs' contract and the data used to
              support Bechtel Jacobs’new payroll creation claim for the period March
              10, 1997, through September 30, 1998.

METHODOLOGY   To accomplish the audit objective, we:

              • Reviewed the proposal submitted by Bechtel Jacobs when bidding
                on the management and integration contract, the contract awarded
                to Bechtel Jacobs, and an agreement clarifying the community
                investment provisions of the contract;

              • Reviewed data supporting the Bechtel Jacobs new payroll creation
                claim for the period March 10, 1997, through September 30, 1998;

              • Examined the Operations Office's review of payroll creation
                activities; and

              • Discussed new payroll creation activities with Bechtel Jacobs and
                Operations Office officials.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, we
              assessed significant internal controls and measurable performance goals
              related to verifying Bechtel Jacobs' new payroll efforts. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not assess the reliability of computer-processed data because very
              little computer-processed data were used during the audit.

              We held an exit conference with the Operations Office's Assets Manager
              and Chief Financial Officer on March 17, 1999.




Page 8                                                      Scope and Methodology
                                                                               IG Report No. : ER-B-99-06

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
